CASE NO. 20-815

IN THE SUPREME COURT OF THE UNITED STATES

TIMOTHY KING, MARIAN ELLEN SHERIDAN, JOHN EARL HAGGARD,
CHARLES JAMES RITCHARD, JAMES DAVID HOOPER and DAREN WADE
RUBINGH,
Plaintiffs/Petitioners,
v.
GRETCHEN WHITMER, in her official capacity as Governor of the State of
Michigan, JOCELYN BENSON, in her official capacity as Michigan Secretary of
State and the Michigan
BOARD OF STATE CANVASSERS
Defendants/Respondents,
and
CITY OF DETROIT, DEMOCRATIC NATIONAL COMMITTEE and MICHIGAN
DEMOCRATIC PARTY, and ROBERT DAVIS,
Intervenor-Defendants/Respondents.

PROOF OF SERVICE
STATE OF MICHIGAN)
)ss
COUNTY OF WAYNE )
STEFANIE LAMBERT JUNTTILA, affirms, deposes and states that on the
15th day of December, 2020, she did cause to be served the following:

1. Motion to Consolidate and Expedite Consideration of the Emergency
Petition for Extraordinary Writ of Mandamus and Application for Preliminary
Injunction, to Expedite Merits Briefing and Oral Argument in the Event that the
Court Grants the Petition, and to Expedite Consideration of this Motion
2. Certificate of Conformity;
3. Proof of Service
Upon counsel in King et al., v. Whitmer, et al., Supreme Court Case No. 20-815:
ERIK A. GRILL
HEATHER S. MEINGAST
Michigan Department of Attorney General
Civil Litigation, Employment & Elections Division
PO Box 30736
Lansing, MI 48909
517-335-7659
Email: grille@michigan.gov
DARRYL BRESSACK
DAVID H. FINK and NATHAN J. FINK
Attorneys as Law
38500 Woodward Avenue; Suite 350
Bloomfield Hills, MI 48304
248-971-2500
Email: dbressack@finkbressack.com
ANDREW A. PATERSON, JR.
Attorney at Law
46350 Grand River Ave.
Novi, MI 48374
248 568-9712
Email: aap43@hotmail.com
MARY ELLEN GUREWITZ
Attorney at Law
Cummings & Cummings Law PLLC
423 North Main Street; Suite 200
Royal Oak, MI 48067
313-204-6979
Email: megurewitz@gmail.com

SCOTT R. ELDRIDGE
Attorney at Law
Miller, Canfield,
One Michigan Avenue
Suite 900
Lansing, MI 48933-1609
517-483-4918
Email: eldridge@millercanfield.com
DANIEL M. SHARE
EUGENE DRIKER
STEPHEN E. GLAZEK
Attorney at Law
Barris, Sott, Denn & Driker, PLLC
333 West Fort Street; 12th Floor
Detroit, MI 48226
313-965-9725
Email: dshare@bsdd.com
EZRA D. ROSENBERG
Lawyers' Committee for Civil Rights Under Law
1500 K Street, NW; Suite 900
Washington, DC 20005
202-662-8345
Email: erosenberg@lawyerscommittee.org
JON GREENBAUM
Lawyers' Committee for Civil Rights Under Law
District Of Columbia
1500 K Street NW
Ste 9th Floor
Washington, DC 20005
202-662-8315
Email: jgreenbaum@lawyerscommittee.org
And upon counsel in Pearson et al v. Kemp, et al., Supreme Court Case No. 20-816:
Charlene S. McGowan
Georgia Department of Law
40 Capitol Square SW
Atlanta, Georgia 30334
cmgowan@law.ga.gov

Joyce Gist Lewis
Krevolin & Horst, LLC
One Atlantic Center
1201 West Peachtree Street, NW
Suite 3250
Atlanta, Georgia 30309
jlewis@khlawfirm.com

Amanda J. Beane
Perkins Coie LLP
1201 Third Avenue, Suite 4900
Seattle, WA 98101-3099
ABeane@perkinscoie.com

Kevin J. Hamilton
Perkins Coie LLP
1201 Third Avenue, Suite 4900
Seattle, WA 98101-3099
KHamilton@perkinscoie.com

Amanda R. Callais
Perkins Coie LLP
700 13th Street, NW, Suite 800
Washington D.C. 20005-3960
ACallais@perkinscoie.com

L. Lin Wood
L. Lin Wood, P.C.
P.O. Box 52584
Atlanta, Georgia 30355-0584
lwood@linwoodlaw.com

Bryan P. Tyson
Taylor English Duma LLP
1600 Parkwood Circle, Suite 200
Atlanta, Georgia 30339
btyson@taylorenglish.com

Marc E. Elias
Perkins Coie LLP
700 13th Street, NW, Suite 800
Washington D.C. 20005-3960
melias@perkinscoie.com

Carey Miller
The Robbins Firm
500 14th Street, NW
Atlanta, Georgia 30318
cmiller@robbinsfirm.com

Melanie Johnson
The Robbins Firm
500 14th Street, NW
Atlanta, Georgia 30318
mjohnson@robbinsfirm.com

Halsey G. Knapp, Jr.
Krevolin & Horst, LLC
One Atlantic Center
1201 West Peachtree Street, NW
Suite 3250
Atlanta, Georgia 30309
hknapp@khlawfirm.com

Matthew J. Mertens
Perkins Coie LLP
1120 NW Couch Street, 10th Floor
Portland, Oregon 97209-4128
MMertens@perkinscoie.com

Howard Kleinhendler
369 Lexington Avenue 12 FL
New York, NY 10017
howard@kleinhendler.com

Russell D. Willard
Georgia Office of the Attorney General
40 Capitol Square, SW
Atlanta, GA 30334
rwillard@law.ga.gov

Josh Belinfante
The Robbins Firm
500 14th Street, NW
Atlanta, Georgia 30318
jbelinfante@robbinsfirm.com

Adam M. Sparks
Krevolin & Horst, LLC
One Atlantic Center
1201 West Peachtree Street, NW
Suite 3250
Atlanta, Georgia 30309
sparks@khlawfirm.com

Susan P. Coppedge
Krevolin & Horst, LLC
One Atlantic Center
1201 West Peachtree Street, NW
Suite 3250
Atlanta, Georgia 30309
coppedge@khlawfirm.com

Sidney Powell
Sidney Powell P.C.
2911 Turtle Creek Blvd., Suite 300
Dallas, Texas 75219-4480
sidney@federalappeals.com

And upon counsel in Feehan v. Wisconsin Election Commission, et al.:
Colin T Roth
Wisconsin Department of Justice
Office of the Attorney General
17 W Main St
PO Box 7857
Madison, WI 53707-7857
608-266-0020
Fax: 608-267-2223
Email: rothct@doj.state.wi.us
Jody J Schmelzer
Wisconsin Department of Justice
Office of the Attorney General
17 W Main St
PO Box 7857
Madison, WI 53707-7857
608-266-3094
Fax: 608-267-8906
Email: schmelzerjj@doj.state.wi.us
Sean Michael Murphy
Wisconsin Department of Justice
Office of the Attorney General
17 W Main St
PO Box 7857
Madison, WI 53707-7857
608-266-5457
Fax: 608-267-2223
Email: murphysm@doj.state.wi.us

Davida Brook
Susman Godfrey LLP
1901 Ave of the Stars - Ste 950
Los Angeles, CA 90061
310-789-3100
Fax: 310-789-3150
Email:
dbrook@susmangodfrey.com
Jeffrey A Mandell
Stafford Rosenbaum LLP
222 W Washington Ave - Ste 900
PO Box 1784
Madison, WI 53701-1784
608-256-0226
Fax: 608-259-2600
Email: jmandell@staffordlaw.com
Justin A Nelson
Susman Godfrey LLP
1000 Louisiana St - Ste 5100
Houston, TX 77002-5096
713-653-7895
Fax: 713-654-6666
Email:
jnelson@susmangodfrey.com
Paul M Smith
Campaign Legal Center
1101 14th St NW - Ste 400
Washington, DC 20005
202-856-7901
Fax: 202-736-2222
Email: psmith@campaignlegal.org
Rachel E Snyder
Stafford Rosenbaum LLP
222 W Washington Ave - Ste 900
PO Box 1784
Madison, WI 53701-1784
608-259-2657
Fax: 608-259-2600

Email: rsnyder@staffordlaw.com
Richard Manthe
Stafford Rosenbaum LLP
222 W Washington Ave - Ste 900
PO Box 1784
Madison, WI 53701-1784
608-259-2684
Email: rmanthe@staffordlaw.com
Stephen Morrissey
Susman Godfrey LLP
1201 3rd Ave - Ste 3800
Seattle, WA 98101
206-373-7380
Email:
smorrissey@susmangodfrey.com
Stephen Shackelford , Jr
Susman Godfrey LLP
1301 Ave of the Americans -32nd
Fl
New York, NY 10019
212-729-2012
Email:
sshackelford@susmangodfrey.com
Allison E Laffey
Laffey Leitner & Goode LLC
325 E Chicago St - Ste 200
Milwaukee, WI 53202
414-312-7003
Fax: 414-755-7089
Email: alaffey@llgmke.com
Ezra D Rosenberg
Lawyers Committee for Civil Rights
Under Law
1500 K Street NW - Ste 900
Washington, DC 20005
202-662-8345
Fax: 202-783-0857

Email:
erosenberg@lawyerscommittee.org
Jacob Conarck
Lawyer's Committee for Civil Rights
Under Law
1500 K St NW - 9th Fl
Washington, DC 20005
202-662-8315
Fax: 202-783-0857
Email: jpconarck@gmail.com
John W Halpin
Laffey Leitner & Goode LLC
325 E Chicago St - Ste 200
Milwaukee, WI 53202
414-312-7261
Fax: 414-755-7089
Email: jhalpin@llgmke.com
Jon Greenbaum
Lawyers'Committee for Civil Rights
Under Law
District Of Columbia
1500 K Street NW - 9th Fl
Washington, DC 20005
202-662-8315
Email:
jgreenbaum@lawyerscommittee.org
Joseph S Goode
Laffey Leitner & Goode LLC
325 E Chicago St - Ste 200
Milwaukee, WI 53202
414-312-7003
Fax: 414-755-7089
Email: jgoode@llgmke.com
ATTORNEY TO BE NOTICED
Mark M Leitner
Laffey Leitner & Goode LLC
325 E Chicago St - Ste 200

Milwaukee, WI 53202
414-312-7003
Fax: 414-755-7089
Email: mleitner@llgmke.com
ATTORNEY TO BE NOTICED
Sopen B Shah
Perkins Coie LLP
33 E Main St - Ste 201
Madison, WI 53703
608-663-7460
Fax: 608-663-7460
Email: SShah@perkinscoie.com
Will McDonell Conley
Perkins Coie LLP
33 E Main St - Ste 201
Madison, WI 53703
608-663-7460
Fax: 608-663-7499
Email: WConley@perkinscoie.com
Charles G Curtis , Jr
Perkins Coie LLP
33 E Main St - Ste 201
Madison, WI 53703
608-663-5411
Fax: 608-663-7499
Email: ccurtis@perkinscoie.com
Christopher Bouchoux
Wilmer Cutler Pickering Hale and Dorr LLP
7 World Trade Center
New York, NY 10007
212-230-8823
Email: christopher.bouchoux@wilmerhale.com
David S Lesser
Wilmer Cutler Pickering Hale and Dorr LLP
7 World Trade Center
New York, NY 10007

212-230-8851
Email: david.lesser@wilmerhale.com
Jamie Dycus
Wilmer Cutler Pickering Hale and Dorr LLP
7 World Trade Center
New York, NY 10007
212-937-7236
Email: jamie.dycus@wilmerhale.com
Michelle M Umberger
Perkins Coie LLP
33 E Main St - Ste 201
Madison, WI 53703
608-663-7460
Fax: 608-663-7499
Email: MUmberger@perkinscoie.com
Seth P Waxman
Wilmer Cutler Pickering Hale and Dorr LLP
1875 Pennsylvania Ave NW
Washington, DC 20006
202-663-6800
Fax: 202-663-6363
Email: seth.waxman@wilmerhale.com
And upon counsel in Bowyer et al. v. Ducey, et al.,
Colin Ahler
Snell & Wilmer LLP
1 Arizona Center
400 E Van Buren
Phoenix, AZ 85004-2202
cahler@swlaw.com
Joseph James Branco
Maricopa County Attorney Civil Services Division
225 W. Madison St.
Phoenix, AZ 85003
brancoj@mcaso.maricopa.gov
Davida Brook

Susman Godfrey LLP
1901 Avenue of the Stars, Ste. 950
Los Angeles, CA 90067
dbrook@susmangodfrey.com
Emily Mae Craiger
Maricopa County Attorney Civil Services Division
225 W. Madison St.
Phoenix, AZ 85003
craigere@mcao.maricopa.gov
Roopali Desai
Coppersmith Brockelman PLC
2800 N. Central Ave., Ste. 1900
Phoenix, AZ 85004
rdesai@cblawyers.com
Derek Conor
Flint Snell & Wilmer LLP
1 Arizona Center
400 E Van Buren
Phoenix, AZ 85004-2202
dflint@swlaw.com
Anni Lori Foster
Office of the Governor
1700 W. Washington St.
Phoenix, AZ 85007
afoster@az.gov
David Andrew Gaona
Coppersmith Brockelman PLC
2800 N. Central Ave., Ste. 1900
Phoenix, AZ 85004
Agaona@cblawyers.com
Elizabeth B. Hadaway
Susman Godfrey LLP
1000 Louisiana, Ste. 5100
Houston, TX 77002
ehadaway@susmangodfrey.com
Julia Zuszua Haller
Defending the Republic South Bldg.
601 Pennsylvania Ave. NW, Ste. 900

Washington, DC 20004
hallerjulia@outlook.com
Brandon Johnson
Sidney Powell PC
2911 Turtle Creek Blvd., Ste. 300
Dallas, TX 75219
Brandoncjohnson6@aol.com
Brett William Johnson
Snell & Wilmer LLP
1 Arizona Center
400 E Van Buren P
hoenix, AZ 85004-2202
bwjohnson@swlaw.com
Ian R. Joyce
Snell & Wilmer LLP
1 Arizona Center
400 E Van Buren
Phoenix, AZ 85004-2202
ijoyce@swlaw.com
Howard Kleinhendler
Howard Kleinhendler Esq.
369 Lexington Ave., 12th Fl.
New York, NY 10017
howard@kleinhendler.com
Alexander Michael Kolodin
Kolodin Law Group PLLC
3443 N. Central Ave., Ste. 1009
Phoenix, AZ 85012
alexander.kolodin@kolodinlaw.com
Joseph Eugene LaRue
Maricopa County Attorneys Office – Phoenix
222 N. Central Ave., Ste. 1100
Phoenix, AZ 85004-2206
laruej@mcao.maricopa.gov
Thomas P. Liddy
Maricopa County Attorneys Office – Civil Services Division
222 N. Central Ave., Ste. 1100
Phoenix, AZ 85004-2206

liddyt@mcao.maricopa.gov
Stephen Edward Morrissey
Susman Godfrey LLP
1201 3rd Ave., Ste. 3800
Seattle, WA 98101
smorrissey@susmangodfrey.com
Justin A. Nelson
Susman Godfrey LLP
1000 Louisiana, Ste. 5100
Houston, TX 77002
jnelson@susmangodfrey.com
Emily P. Newman Sidney Powell PC
2911 Turtle Creek Blvd., Ste. 300
Dallas, TX 75219
enewman@protonmail.com
Sidney Katherine Powell
Sidney Powell PC
2911 Turtle Creek Blvd., Ste. 300
Dallas, TX 75219
sidney@federalappeals.com
Stephen Lee Shackelford, Jr.
Susman Godfrey LLP
1301 Avenue of the Americas, 32nd Fl.
New York, NY 10019
sshackelford@susmangodfrey.com
Joseph I. Vigil
Maricopa County Attorney Services Division
225 W Madison St.
Phoenix, AZ 85003 vigilj@mcao.maricopa.gov
Christopher Alfredo Viskovic
Kolodin Law Group PLLC
3443 N. Central Ave., Ste. 1009
Phoenix, AZ 85012 cviskovic@kolodinlaw.com
Mr. L. Lin Wood Jr.
L Lin Wood PC
663 Greenview Avenue NE
Atlanta GA 30305

lwood@linwoodlaw.com
Kristen Michelle Yost
Coppersmith Brockelman PLC
2800 N. Central Ave., Ste. 1900
Phoenix, AZ 85004
kyost@cblawyers.com
By email and by placing said copies in a properly addressed envelope with sufficient
postage fully prepaid, and placing in a U.S. Mail Receptacle.
FURTHER AFFIANT SAYETH NOT.
/s/ Stefanie Lambert Junttila
STEFANIE LAMBERT JUNTTILA

